AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE
  AWARD TO THE VIRGINIA DEPARTMENT OF
             FORENSIC SCIENCE


           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


          Audit Report GR-30-13-003
                  July 2013
This Page Left Intentionally Blank.
 AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE
   AWARD TO THE VIRGINIA DEPARTMENT OF
              FORENSIC SCIENCE
            RICHMOND, VIRGINIA

                        EXECUTIVE SUMMARY

       The Department of Justice (DOJ) Office of the Inspector General (OIG)
completed an audit of National Institute of Justice (NIJ) cooperative
agreement number 2011-DN-BX-K421 totaling $1,447,358 awarded to the
Virginia Department of Forensic Science (DFS) in Richmond, Virginia. The
NIJ funding was part of the fiscal year (FY) 2011 DNA Backlog Reduction
Program. The goal of the DNA Backlog Reduction Program is to assist
eligible states and units of local government in reducing the number of
forensic DNA and DNA database samples awaiting analysis.

       The objective of our audit was to assess performance in the key areas
of cooperative agreement management that are applicable and appropriate
for the cooperative agreement under review. These areas include:
(1) internal control environment, (2) federal financial reports and progress
reports, (3) drawdowns, (4) budget management and control,
(5) expenditures, and (6) contract management.

       Our audit found that the transactions we reviewed were, in general,
properly authorized, supported, and charged to the cooperative agreement.
However, during the audit, we found DFS did not reconcile the cooperative
agreement’s subsidiary records to the general ledger, and, consequently,
filed an inaccurate Federal Financial Report (FFR) and submitted an
inaccurate drawdown request. Therefore, we recommend that DFS
implement an internal procedure to reconcile the cooperative agreement’s
subsidiary accounting records to the official DFS accounting system, the
Commonwealth Accounting and Reporting System known as CARS, to ensure
that DFS accurately reports its FFRs and calculates its drawdown requests.
Additionally, while we verified that DFS has met, in part, the objectives of
the award, we note that cuts to the DFS budget impaired its ability to
decrease the overall backlog of forensic DNA samples.

      Our report contains one recommendation. We discussed the results of
our audit with DFS officials and have included their comments in the report.
                                  Table of Contents

                                                                                     Page
INTRODUCTION ............................................................................. 1
FINDINGS AND RECOMMENDATIONS ............................................. 3
Internal Control Environment .............................................................. 3
Reporting .......................................................................................... 4
  Federal Financial Reports.................................................................. 4
  Progress Reports ............................................................................. 6
Program Performance ......................................................................... 7
  Forensic Scientist Staffing Levels ....................................................... 8
Drawdowns ....................................................................................... 9
Budget Management and Control ......................................................... 9
Cooperative Agreement Expenditures ................................................. 10
  Personnel Costs............................................................................. 10
  Travel and Other Costs .................................................................. 12
Contract Management ...................................................................... 12
Recommendations ............................................................................ 13
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ... 14
STATEMENT ON INTERNAL CONTROLS ......................................... 15
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............. 16
APPENDIX II - VIRGINIA DEPARTMENT OF FORENSIC SCIENCE
  RESPONSE TO THE DRAFT REPORT .......................................... 19
APPENDIX III - OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE
  DRAFT AUDIT REPORT ............................................................. 22
APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS
  AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT
  ................................................................................................ 24
                               INTRODUCTION

       The Office of the Inspector General, Audit Division, has completed an
audit of National Institute of Justice (NIJ) cooperative agreement number
2011-DN-BX-K421 in the amount of $1,447,358 awarded to the Virginia
Department of Forensic Science (DFS). 1 The NIJ funding was part of the
fiscal year (FY) 2011 DNA Backlog Reduction Program. The goal of the DNA
Backlog Reduction Program is to assist eligible states and units of local
government in processing, recording, screening, and analyzing forensic DNA
and/or DNA database samples, and to increase the capacity of public
forensic DNA and DNA database laboratories to process more DNA samples,
thereby helping to reduce the number of forensic DNA and DNA database
samples awaiting analysis.

      Specific goals that DFS sought to achieve during the award period
were to: (1) Reduce the forensic DNA case backlog through forensic
scientist overtime and purchase of supplies; (2) Increase the capacity of the
laboratory system by purchasing equipment, such as a DNA extraction robot
and expert systems software, and by hiring four fully-qualified forensic
scientists and one full-time forensic laboratory specialist; and (3) Provide the
required continuing education for each forensic scientist.

Audit Approach

      The purpose of the audit was to determine whether costs claimed
under the cooperative agreement were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the award; and whether the awardee was meeting its program
goals and objectives.

       The objective of our audit was to assess performance in the key areas
of cooperative agreement management that are applicable and appropriate
for the cooperative agreement under review. These areas include:
(1) internal control environment, (2) federal financial reports and progress
reports, (3) drawdowns, (4) budget management and control,
(5) expenditures, and (6) contract management.




       1
         As established by the Code of Virginia, the DFS is a statewide forensic laboratory
system under the Virginia Office of Public Safety. DFS has the sole responsibility for
analyzing evidential material associated with criminal investigations for all state and local
law enforcement agencies and medical examiners within the Commonwealth of Virginia.
      We tested compliance with what we considered the most important
conditions of the cooperative agreement. Unless otherwise stated in the
report, we used the Office of Justice Programs (OJP) Financial Guide
(Financial Guide) to assess DFS’s performance and compliance with the
requirements of the cooperative agreement. 2 Specifically, we tested what
we believed to be critical award requirements necessary to meet the
objectives of the audit, including:

   •   Internal Control Environment to determine whether the internal
       controls in place for the processing and payment of funds were
       adequate to safeguard the funds awarded to DFS and to ensure
       compliance with the terms and conditions of the NIJ cooperative
       agreement;

   •   Reporting to determine if the required federal financial reports and
       progress reports were submitted timely and accurately reflect the
       activity of the cooperative agreement;

   •   Drawdowns to determine whether drawdowns were adequately
       supported and if the auditee was managing receipts in accordance with
       federal requirements;

   •   Budget Management and Control to ensure that DFS appropriately
       tracked costs to approved budget categories;

   •   Cooperative Agreement Expenditures to determine the accuracy
       and allowability of costs charged to the cooperative agreement; and

   •   Contract Management to ensure compliance with overall financial
       management requirements for procurements.

      The award did not include program income, matching funds, or indirect
costs. The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Appendix I contains additional
information on our objective, scope, and methodology.




       2
          The Financial Guide serves as a reference manual that provides guidance to award
recipients on the fiduciary responsibility to safeguard award funds and to ensure funds are
used appropriately. OJP requires award recipients to abide by the requirements in the
Financial Guide.



                                             2
            FINDINGS AND RECOMMENDATIONS

       COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

      Our audit found that the transactions were, in general, properly
      authorized, supported, and charged to the cooperative
      agreement. However, during the audit, we found DFS did not
      reconcile the cooperative agreement’s subsidiary records to its
      general ledger, and, consequently, filed an inaccurate Federal
      Financial Report (FFR) and submitted an inaccurate drawdown
      request. Therefore, we recommend that DFS implement an
      internal procedure to reconcile the cooperative agreement’s
      subsidiary accounting records to the official DFS accounting
      system, the Commonwealth Accounting and Reporting System
      known as CARS, to ensure that DFS accurately reports its FFRs
      and calculates its drawdown requests.


Internal Control Environment

       According to the OJP Financial Guide, award recipients are
responsible for establishing and maintaining an adequate system of
accounting and internal controls. An acceptable internal control system
provides cost controls to ensure optimal use of funds. Award recipients
must adequately safeguard funds and ensure they are used solely for
authorized purposes. While our audit did not assess DFS’s overall system
of internal controls, we did review the internal controls of DFS’s financial
management system specific to the administration of cooperative
agreement funds during the periods under review. Specifically, we
interviewed pertinent DFS officials, reviewed written policies and
procedures that affect the NIJ award, and reviewed the Commonwealth of
Virginia’s single audit report.

        The Code of Federal Regulations requires recipients to maintain
records to adequately identify the source and application of cooperative
agreement funds provided for financially supported activities. These
records must contain information pertaining to cooperative agreement
awards and authorizations, obligations, unobligated balances, assets,
liabilities, outlays or expenditures, and income. DFS used Commonwealth
Accounting and Reporting System (CARS), and a subsidiary accounting
record known as the grants tracking spreadsheet for the DFS award. We


                                       3
determined that the accounts tracked obligations, outlays, and
expenditures allocated to the DFS award. However, we found financial
reporting issues discussed later in the “Reporting” section of this report.

Reporting

      The special conditions of the award require that DFS comply with
administrative and financial requirements outlined in the Financial Guide and
the requirements of the Office of Management and Budget (OMB) Circular
A-133, Audits of States, Local Governments and Non-Profit Organizations
(OMB Circular A-133). 3 The Financial Guide requires that awardees submit
both financial and program progress reports to inform awarding agencies on
the status of each award. Federal Financial Reports (FFRs) should detail the
actual expenditures incurred for each quarterly reporting period, while
progress reports should be submitted semiannually and describe the
performance activities and achievements of the project supported by each
award.

       Because accurate and timely FFRs and progress reports are necessary
to ensure that DOJ awarding agencies can effectively monitor award
activities and expenditures, we reviewed DFS reports for cooperative
agreement number 2011-DN-BX-K421. As detailed in the following sections,
DFS submitted all required FFRs and progress reports in a timely manner.
However, while we were able to verify that progress reports accurately
reflected actual program accomplishments, FFRs did not accurately report
cooperative agreement expenditure activity due to errors in subsidiary
accounting records.

Federal Financial Reports

      DOJ awarding agencies monitor the financial performance of each
award via FFRs. According to the Financial Guide, FFRs should be submitted
within 30 days of the end of each quarterly reporting period. Even when
there have been no outlays of award funds, a report containing zeroes must
be submitted. Awarding agencies may withhold funds or future awards if
reports are submitted late, or not at all.


       3
          OMB Circular A-133 requires non-federal entities that expend at least $500,000 a
year in federal awards to have a single audit conducted of its financial statements. The
purpose of the single audit is to determine whether the financial statements and schedule of
expenditures of federal awards are presented fairly in all material respects and in conformity
with generally accepted accounting principles.



                                              4
      To verify the timeliness of the FFRs, we tested the last four reports
submitted as of October 23, 2012, which included award activity as of
September 30, 2012. We compared the submission date of each report to
the date each report was due, and found that all FFRs were submitted on
time.

      The Financial Guide indicates that an awardee’s accounting system for
reporting must support all amounts reported on the FFRs. To verify the
accuracy of the FFRs, we discussed the process for submitting FFRs with the
responsible DFS officials and compared the amounts reported on the last
four FFRs to expenditures recorded in the awardee’s accounting records.
Based on our testing, we found that expenditures reported on one of the last
four FFRs did not reconcile to the official accounting records of the award.

      This reporting error was caused by the awardee not reconciling
subsidiary records to the official accounting system and general ledger of
DFS. Instead of using the Commonwealth’s accounting system, the
Commonwealth Accounting and Reporting System (CARS), as the source for
FFR data, DFS uses a subsidiary accounting record known as the grants
tracking spreadsheet. During our testing, we found an error in the grants
tracking spreadsheet that resulted in an understatement of personnel
charges totaling $53,269. The awardee addressed this error and we verified
that as of January 31, 2013, the award’s subsidiary records reconcile to
CARS.

       While the grants tracking spreadsheet is a valuable budgeting and
accounting tool, we believe the awardee should reconcile the spreadsheet to
the general ledger in CARS before the awardee files its FFRs. Because DFS
uses the FFRs as the basis for drawdown requests, an error in an FFR will
not only result in DFS reporting the incorrect financial results for a period,
but also drawing down an incorrect amount of federal funds. 4 Therefore, we
recommend that OJP ensure that DFS accurately reports its FFRs and
calculates its drawdown requests by implementing an internal procedure to
reconcile the cooperative agreement’s subsidiary accounting records to the
official DFS accounting system (CARS).




       4
         In this instance, the result of the DFS accounting error was an understatement of
its own costs.



                                             5
Progress Reports

      While FFRs report award financial activity, progress reports describe
the project status and accomplishments of the DOJ supported program or
project. Progress reports should also describe the status of the project and
compare actual accomplishments to anticipated program objectives.
According to the Financial Guide, award recipients are required to submit
progress reports every six months during the performance period of the
award. Progress reports are due 30 days after the end of each semi-annual
reporting period, June 30 and December 31. DOJ awarding agencies may
withhold award funds if awardees fail to submit accurate progress reports on
time.

      To assess whether DFS submitted progress reports on time, we
reviewed two progress reports covering October 1, 2011 through December
31, 2011 and January 1, 2012 through June 30, 2012 and compared the
submission dates to the due date for each progress report. Both progress
reports were submitted on time.

       We also reviewed reported program achievements detailed in these
same progress reports, to determine if DFS achievements were consistent
with its stated program goals. According to its award documentation, goals
of the program are to: (1) Reduce the forensic DNA case backlog though
forensic scientist overtime and purchase of supplies; (2) Increase the
capacity of the laboratory system by purchasing equipment, such as a DNA
extraction robot and expert systems software, and by hiring four fully-
qualified forensic scientists and one full-time forensic laboratory specialist;
and (3) Provide the required continuing education for each forensic scientist.

       According to DFS personnel, DFS did not report any achievements in
the first two progress report periods because an overlapping FY 2010 DNA
Backlog Reduction Program award provided NIJ Backlog Reduction Program
funding to DFS through June 30, 2012.5 From October 1, 2011 through June
30, 2012, only $620.95 was expended with FY 2011 award funds. This
expense was incurred to pay for the travel and training expenses for one

       5
          Currently, NIJ DNA Backlog Reduction awards are made on an annual basis;
however, the project period of the award lasts for 18 months, thereby creating overlap
between award periods. The project period for the 2010 DNA Backlog Reduction award was
October 1, 2010 – March 31, 2012. Additionally, DFS asked for a three month no-cost
extension for the 2010 award, therefore extending the 2010 award until June 30, 2012. As
a result, the FY 2010 award project period overlapped a total of 9 months of the planned FY
2011 award project period.



                                             6
forensic scientist, in May 2012, who was unable to attend the training
provided to the rest of the DFS forensic scientists in September 2012.

      At the time of our testing, we were able to determine DFS expended
monies to pursue, in part, all three of its project goals. Specifically, we
reviewed documentation that evidenced DFS paid overtime for forensic
scientists, salaries of four full-time forensic scientists, and paid for forensic
scientist travel and registration fees for training events. DFS had not yet
purchased equipment with the FY 2011 award because, according to DFS,
vendor agreements were extended to increase the lifespan of existing
equipment.

Program Performance

      DFS provided us overall data on received and backlogged DNA cases
for the time frame of the FY 2011 project period. This data is presented in
Exhibit 1 below.

Exhibit 1: Virginia Department of Forensic Science Backlogged Cases
       versus Cases Received (October 2011-December 2012)

           800
                                                                                                                    693 669
           700                                                                                                                        634 645
                 586 578 578 574 598 583                                                                   563
           600                                                         546                        522
                                                                                483 461
           500
   Cases




           400                                                                                             477
                                            386                  395 382 381                                                                            Cases Received
           300 376                                   349 374 329                                                        370 347
                                   340                                                                              324         336
           200            295                                                                                                                           Backlog Over 30
                                                                                                                                                        Days
           100
             0
                                   Dec-11




                                                                                May-12
                                                                       Apr-12




                                                                                                                                               Dec-12
                 Oct-11

                          Nov-11



                                            Jan-12



                                                              Mar-12




                                                                                         Jun-12



                                                                                                           Aug-12



                                                                                                                             Oct-12

                                                                                                                                      Nov-12
                                                     Feb-12




                                                                                                  Jul-12



                                                                                                                    Sep-12




                                    Months
Source: Virginia Department of Forensic Science
Note: Dotted line shows that Virginia Department of Forensic Science began to use FY 2011
award funds to pay for forensic examiner salary and overtime in July 2012.




                                                                                              7
During the period of October 2011 – June 2012, DFS used FY 2010 award
funds to hire forensic scientists, purchase equipment, and fund forensic
scientist overtime. In July 2012, DFS began to use FY 2011 award funds to
pay for forensic scientist overtime and salary and the backlog steadily
increased. Although many factors, including the complexity in testing case
evidence, can contribute to an increase in case backlog, a DFS official told us
that the increase in case backlog seen in the second half of 2012 is
attributable to the loss of forensic scientists from DFS. 6

Forensic Scientist Staffing Levels

      According to the DFS FY 2011 Backlog Reduction Program
documentation, DFS stated that it would hire four fully-qualified forensic
scientists to conduct analyses on forensic DNA cases. As noted in the grant
application, the four forensic scientists were originally hired years earlier
using prior awards. The FY 2011 award has been used to continue to pay
the salary of these forensic scientists, and not for the purpose of hiring
additional forensic scientists.

       In order to determine the level of federal support for forensic scientist
positions provided to DFS, we requested from DFS a breakdown of funding
sources for forensic scientist positions from FY 2008 – FY 2012. 7 This data is
provided in Exhibit 2:

            Exhibit 2: Virginia Department of Forensic Science
                    Forensic Scientist Funding Sources
           FY 2008 – 2012 (Commonwealth vs. Federal Funding)

                                              FY 08     FY 09      FY 10      FY 11   FY 12
  Virginia General Fund Filled                49          43        41         41      38
  Virginia General Fund Vacant                1            0         0          0       4
   Total Virginia General Fund Positions      50          43        41         41      42
  Federally Funded Filled                     0            1         3          5       5
  Federally Funded Vacant                     0            0         3          0       0
     Total Federally Funded Positions         0            1         6          5       5
  Total Available                            50           44        47         46      47
 Source: Virginia Department of Forensic Science

       6
          This official added that there are currently 5 new forensic scientists that were
hired, using non-federal funds, during the second half of 2012. According to this official,
these forensic scientists were in training during this period.
       7
           The Commonwealth of Virginia’s Fiscal Year is July through June.



                                              8
      As presented in the table above, forensic scientist positions funded by
the Commonwealth of Virginia have decreased from 50 in FY 2008 to 42 in
FY 2012. According to DFS, in FY 2008, approximately $1.7 million in
Commonwealth funds was permanently eliminated from the DFS budget,
$240,000 of which came from holding open positions as they became
vacant. Similarly, in FY 2010, further permanent Commonwealth general
fund reductions removed an additional $200,000 in personnel costs from the
DFS budget. Multiple federal forensic DNA analysis awards, including the FY
2011 Forensic DNA Backlog Reduction award, have provided funds to
mitigate the loss of Commonwealth general fund forensic scientist positions. 8
However, the cuts to the DFS budget impaired its capacity to process more
DNA samples, thereby not helping to reduce the number of forensic DNA
samples awaiting analysis.

Drawdowns

       To obtain DOJ award money, award recipients must electronically
request award funds via drawdowns. The Financial Guide states that award
recipients should only request federal award funds when they incur or
anticipate project costs. Therefore, recipients should time their requests for
award funds to ensure they will have only the minimum federal cash on
hand required to pay actual or anticipated costs within 10 days.

       According to DFS personnel, drawdown requests are based on
reimbursements of expenses for salaries, fringe benefits, travel, and
training. DFS confirmed that their policy is to request a drawdown each
quarter based on the expenditures reported on the FFRs. To ensure that
DFS requested funds properly and kept minimum cash on hand, we analyzed
its drawdowns to date and compared the overall amount to the cooperative
agreement’s accounting records. Overall, we found that the amounts drawn
down did not exceed the expenditures in the accounting records.

Budget Management and Control

       Awardees should expend funds according to the budget approved by
the awarding agency and included in the final award. Approved award
budgets document how much the recipient is authorized to spend in high-
level budget categories, such as personnel, supplies, and contractors. The

      8
        Since FY 2009, forensic scientist positions have been funded through other related
programs, including prior year Backlog Reduction Program awards as well a Post-Conviction
DNA Testing Program award and an Identify the Missing Program award.



                                            9
Financial Guide also states that award recipients may request a modification
to approved award budgets to reallocate amounts between various budget
categories within the same award. No prior approval is required if the
reallocations between budget categories do not exceed 10 percent of the
total award amount. We compared the actual amounts spent in each budget
category to the budgeted amounts in the same categories. For cooperative
agreement 2011-DN-BX-K421, DFS adhered to the Financial Guide
requirements.

Cooperative Agreement Expenditures

       According to 2 C.F.R. § 225 Cost Principles for State, Local, and Indian
Tribal Governments, costs are allowable if they are reasonable, consistently
applied, adequately documented, comply with policies and procedures, and
conform to any limitations or exclusions specified in applicable criteria. As of
December 14, 2012, the award’s subsidiary accounting ledger reported
$288,562 in project costs associated with cooperative agreement number
2011-DN-BX-K421. We tested $90,501 (31 percent) in personnel, travel,
and other costs charged to the cooperative agreement, and determined that
the reviewed expenses were allowable.

Personnel Costs

      The personnel costs of the cooperative agreement include the total
salary and fringe benefits costs of four dedicated forensic scientists, one
dedicated forensic specialist, and, on an as-needed basis, forensic scientists
working overtime.

       To gain an understanding of the payroll process, we interviewed DFS
human resources and management personnel. The DFS payroll is processed
through the Commonwealth of Virginia’s centralized Commonwealth
Integrated Payroll and Personnel System (CIPPS), which interfaces with
Virginia’s centralized accounting system, CARS. Payroll is processed semi-
monthly on the 1st and 16th of each month. The salary and fringe benefits
payments for the employees exclusively dedicated to the cooperative
agreement project are automatically generated each pay period based on
the employee’s payroll and work project information entered into the
system. As needed, overtime forensic scientists working on the award
record their hours on timesheets and charge the cooperative agreement at
their regular hourly wage for overtime hours plus the employer’s share of
FICA. Overtime pay is processed as a one-time addition to the employee’s
regular pay.


                                      10
      Salaries

        Since there were only two quarters of salary expenditures recorded for
the cooperative agreement as of the January 7, 2013, we tested the salary
and fringe benefits of one employee dedicated to the award for each quarter.
We verified each employee’s semi-monthly salary charged to the award to
the semi-monthly calculation of each employee’s salary based on the master
list of DFS salaries. Additionally, we tested each employee’s fringe benefits
charged to the award, including health insurance, social security, retirement,
and group life insurance. These fringe benefits charges were tested by
examination of supporting documentation and recalculation. In general, we
found that each employee’s salary and fringe benefits were accurately
charged to the award, and the charges were supportable and allowable
under the conditions of the award.

        During the course of our testing, we noted that for one of the
employees tested, the salary and fringe benefits costs charged to the award
were less than they should have been. The subsidiary records contained
errors in its formulas, so the amount of salary and fringe benefits that were
recorded on the quarter’s FFR, and drawn down for the period, were actually
less than the actual salary and fringe benefits for the affected employee.
Because the awardee had not reconciled its subsidiary accounting records to
its official accounting records, the Commonwealth accounting system known
as CARS, the awardee had understated the expenditures on an FFR and
drawdown request. This matter was brought to the attention of DFS grant
management personnel, and the total understatement in salary and fringe
benefits of $53,269 that should have been charged to the award was
corrected in the accounting records and reported on a subsequent FFR.

      Fringe Benefits

      When DFS employees work on cooperative agreements, DFS incurs
costs associated with providing its employees fringe benefits such as payroll
taxes, health insurance, and pension plan contributions, which are allowable
under the cooperative agreement. As part of our payroll testing, we
recalculated payroll taxes, retirement plan contributions, group life insurance
premiums, and health insurance costs charged to the award based on the
Commonwealth of Virginia’s employee fringe benefits rates effective July 1,
2012. We noted no exceptions in our testing and determined that the fringe
benefits charged to the cooperative agreement were reasonable based on
the Commonwealth’s approved fringe benefits rates.




                                      11
      Overtime

      In testing charges to the award for employees receiving overtime pay,
we judgmentally selected the pay of three employees who charged overtime
to the award. Our tests included verifying the employees’ regular pay rate
and the associated employer portion of FICA. Additionally we tested four
attributes of the overtime charges: (1) Is there evidence the employee is an
award overtime employee, (2) Do the overtime hours per the employee’s
timesheet equal the hours reported on the pay history, (3) Was the overtime
timesheet approved by the supervisor, and (4) Are the salary and FICA
amounts charged to the cooperative agreement entered in CARS. Based on
our analysis, we take no exceptions to the overtime charges.

Travel and Other Costs

      We selected a judgmental sample of 25 transactions from the
categories of Travel and Other Costs from cooperative agreement 2011-DN-
BX-K421 totaling $38,552 to determine if the charges were allowable and
allocable to the award. Based on our testing, we determined that the
sampled transactions were allowable. 9

Contract Management

      We reviewed DFS’s procurement policies and interviewed DFS’s award
procurement personnel. Although equipment purchases under this award
had not yet occurred during the period of our audit, DFS obtained a grant
adjustment notice to make a sole-source procurement for DNA typing kits
from Promega. Given the limited number of vendors who provide kits that
meet appropriate standards, and the fact that DFS has validated the use of
Promega kits in its existing equipment, the sole-source procurement request
was approved by NIJ. DFS began to purchase these kits in January 2013.




      9
          We tested 6 transactions within the category of Other Costs totaling $24,105,
which were comprised of DNA examiner training workshop registration fees. Additionally,
we tested 19 transactions within the category of Travel totaling $14,447, which included
costs for travel to DNA examiner training workshops.



                                           12
Recommendations

We recommend that OJP:

  1. Ensure that DFS accurately reports its FFRs and calculates its
     drawdown requests by implementing an internal procedure to reconcile
     the cooperative agreement’s subsidiary accounting records to the
     official DFS accounting system (CARS).




                                  13
      STATEMENT ON COMPLIANCE WITH LAWS AND
                   REGULATIONS

      As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
DFS’s management complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. DFS’s management is responsible for ensuring compliance with
applicable federal laws and regulations. In planning our audit, we identified
the following laws and regulations that concerned the operations of DFS and
that were significant within the context of the audit objectives:

  •   2 C.F.R. Part 225 – Cost Principles for State, Local, and Indian Tribal
      Governments.

  •   28 C.F.R. Part 66 – Uniform Administrative Requirements for Grants
      and Cooperative Agreements to State and Local Governments.

      Our audit included examining, on a test basis, DFS’s compliance with
the aforementioned laws and regulations that could have a material effect on
DFS’s operations, through interviewing auditee personnel, analyzing data,
assessing internal control procedures, and examining procedural practices.
Nothing came to our attention that caused us to believe that DFS was not in
compliance with the aforementioned laws and regulations.




                                      14
           STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of DFS’s internal controls was not
made for the purpose of providing assurance on its internal control structure
as a whole. DFS management is responsible for the establishment and
maintenance of internal controls.

       Through our audit testing, we did not identify any deficiencies in DFS’s
internal controls that are significant within the context of the audit objectives
and based upon the audit work performed that we believe would affect DFS’s
ability to effectively and efficiently operate, to correctly state financial and
performance information, and to ensure compliance with laws and
regulations.

       Because we are not expressing an opinion on DFS’s internal control
structure as a whole, this statement is intended solely for the information
and use of DFS. This restriction is not intended to limit the distribution of
this report, which is a matter of public record.




                                       15
                                                             APPENDIX I

        OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this performance audit was to determine whether
reimbursements claimed for costs under the cooperative agreement
reviewed were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the cooperative
agreement. The objective of our audit was to assess performance in the key
areas of cooperative agreement management that are applicable and
appropriate for the cooperative agreement under review. These areas
include: (1) internal control environment, (2) federal financial reports and
progress reports, (3) drawdowns, (4) budget management and control,
(5) expenditures, and (6) contract management.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

       Our audit concentrated on cooperative agreement number 2011-DN-
BX-K421 in the amount of $1,447,358 to the Virginia Department of Forensic
Science (DFS) awarded by the National Institute of Justice. DFS uses these
funds to process and analyze forensic DNA and/or DNA database samples in
order to reduce the number of forensic DNA and DNA database samples
awaiting analysis. We reviewed cooperative agreement activities and
transactions beginning with the inception of the award on October 1, 2011,
through December 14, 2012. Due to errors in accounting for the
cooperative agreement, we considered adjustments to the general ledger
that occurred following December 14, 2012. Furthermore, because nearly
all of the project activity began in July 2012, this project activity was not
captured in the available submitted progress reports that we tested.
Therefore, we considered backlog and case acceptance metrics as well as
forensic scientist staffing data through the end of December 2012 to
determine if DFS was successfully reducing its forensic DNA case backlog.

       In conducting our audit, we performed judgmentally selected, non-
statistical sample testing in those areas we deemed critical to the award
requirements. Judgmental sampling design was applied to obtain broad


                                     16
exposure to numerous facets of the reimbursements reviewed. This non-
statistical sample design does not allow projection of the test results to all
payroll expenditures. Our sample testing was conducted in the following
areas:

   •   Drawdowns. We analyzed DFS’s overall drawdowns of $120,857 for
       the DOJ award from the date of award obligation, August 16, 2011,
       through December 14, 2012. The overall drawdowns did not exceed
       the total expenditures per the cooperative agreement’s subsidiary
       accounting ledger.

   •   Payroll. We interviewed DFS human resources personnel and grant
       management personnel regarding the charging of personnel and fringe
       benefits costs to the cooperative agreement. To determine whether
       the cooperative agreement’s labor and fringe benefits costs were
       supported and allowed, we judgmentally selected employees to test
       from the two quarters of labor and fringe benefits charged to the
       award through the December 14, 2012 pay date. We tested personnel
       costs totaling $51,949 out of $226,178 charged to the cooperative
       agreement. We recalculated salary figures based on the DFS master
       list of salaries and agreed fringe benefits rates to the Commonwealth
       of Virginia’s schedule of benefits rates effective July 1, 2012. There
       were no exceptions noted in our testing, and the labor and fringe
       benefits costs charged to the cooperative agreement were supported
       and allowable. 10

  •    Transactions. To test the cooperative agreement’s transactions for
       authorizations, approvals, and sufficient supporting documentation, we
       judgmentally selected 25 non-payroll transactions totaling $38,552 out
       of $62,384 charged to the cooperative agreement. We analyzed the
       transactions to determine if the costs were properly authorized,
       classified, recorded, and supported.

  •    Contract Management. We reviewed DFS’s procurement policies
       and interviewed DFS’s award procurement personnel. Although
       equipment purchases under this award had not yet taken place during


       10
          We verified each employee’s annual salary to the master list of DFS salaries and
divided the annual salary by the standard annual DFS work hours per year. This calculation
produced the employee’s regular pay rate. For the employer’s portion of FICA charged to
the cooperative agreement, we calculated the FICA by multiplying the overtime pay by the
employer’s FICA rate of 7.65 percent.



                                           17
     the period of our audit, DFS obtained a grant adjustment notice to
     make a sole-source procurement of DNA reagent kits.

       In addition, we reviewed the timeliness and accuracy of financial
status and progress reports and reviewed the internal controls for the
cooperative agreement number 2011-DN-BX-K421. However, we did not
test the reliability of the internal control procedures or the financial
management system as a whole.




                                    18
                                                                          APPENDIX II

     VIRGINIA DEPARTMENT OF FORENSIC SCIENCE
          RESPONSE TO THE DRAFT REPORT




Troy M. Meyer
Regional Audit Manager
Office of the Inspector General
United States Department of Justice

Dear Mr. Meyer:

The Virginia Department of Forensic Science (DFS) has reviewed the draft report prepared by
the U. S. Department of Justice (DOJ) Office of the Inspector General (OIG) in connection with
the audit of the National Institute of Justice (NU) DNA Backlog Reduction Program grant,
cooperative agreement number 2011-DN-BX-K421. DFS respectfully submits the following
response to the audit recommendation in addition to supplemental information regarding the
audit report for your consideration.

OIG Recommendation: Ensure that DFS accurately reports its FFRs and calculates its
drawdown requests by implementing an internal procedure to reconcile the cooperative
agreement's subsidiary accounting records to the official DFS accounting system (CARS).

DFS Management Response: DFS partially concurs with this recommendation. DFS agrees that
the information in one FFR was under reported and agrees that an additional procedure should be
incorporated to prevent a reoccurrence in the future. DFS believes that the reconciliation
procedure proposed in the OIG recommendation is not sufficient to prevent a reoccurrence, due
to the nature of personnel expense data residing in the CARS system, and offers an alternative
solution.




                                              19
    Background

    DFS uses the state accounting and vendor payment system (CARS), which is a mainframe
    application first implemented in 1978 and then upgraded in 1986 (27 years ago). This
    system lacks the functionality and flexibility of more current accounting systems. Also, DFS
    uses the services of the Commonwealth's Payroll Service Bureau for the processing of
    employee pay via the state payroll system (CIPPS). CIPPS is also a mainframe system and
    lacks the functionality and flexibility of more current payroll systems.

     • The process for adding a grant project code to an employee's pay in CIPPS is not
       adequate to allow for the full and timely tracking of those expenses to a particular grant.

     • Personnel expenditure data in CARS is a summary of CIPPS data; therefore, it suffers
       from the same system limitations.

     • DFS has developed processes and procedures, including a detailed grants subsidiary
       ledger, to augment our capability to accurately manage and report grant expenses in spite
       of the inherent limitations of the CARS and CIPPS systems. Although the subsidiary
       ledger is reconciled to CARS for non-personnel expenses, it cannot be reconciled to
       CARS for personnel expenses for the reasons noted above.

DFS Management Alternate Solution: The understatement of grant related personnel
expenditures was caused by a calculation error in its Excel-based grants subsidiary ledger. The
calculation did not include the expenses for two pay periods. In order to prevent this type of error
in the future, DFS offers a written procedure (Attachment 1) to calculate the personnel expenses
for the grant quarter and compare that to the subsidiary ledger to ensure all pay periods have
been included. If this procedure had previously been incorporated, the formula error would have
been detected and corrected prior to the submission of the FFR.

DFS Additional Information: DFS respectfully submits three additional comments for
clarification of the information in the draft OIG report:

    1. Based on information in the OIG report and subsequent discussion with the auditors,
       OIG believes there were two different errors in the subsidiary ledger, and subsequently
       in two FFRs, totaling $53,269. DFS and OIG are in agreement that the personnel
       expenses for the fourth quarter FFR were understated by $31,178 and that this amount
       was added to the fifth quarter FFR. We are not in agreement that personnel expenses for
       the fifth quarter were understated by $22,091 and that a revised FFR was submitted. An
       interim copy of the grants subsidiary ledger was provided to the auditors prior to the end
       of the fifth quarter. Expenses that occurred after the date of the interim document
       through the end of the quarter totaled $22,091. These expenses were properly tracked in
       the subsidiary ledger prior to the finalization of the ledger for the quarter and prior to the
       preparation and submission of the fifth quarter FFR.




                                                20
    2. The report correctly states that DFS stated in the grant application that we would "hire"
       four fully-qualified forensic scientists. However, the application also explained in
       specific detail that the scientists had been hired under a previous grant and would
       continue work on the 2011 grant, if awarded.

    3. The report also correctly states that DFS was unable to provide specific metrics within
       its first two progress reports. However, it was not possible to provide certain metrics
       since the 2011 funds had not yet been expended for backlog reduction purposes.

In conclusion, we would like to thank your agency for the audit of the DNA Backlog
Reduction grant, which has been instrumental in DFS' efforts to reduce the forensic
casework backlog. DFS takes its responsibility for proper stewardship of public funds
very seriously and appreciates the value that is gained when an outside entity reviews
the processes and procedures that we have in place.




                                      Director, Department of Forensic Science

Enclosures




                                              21
                                                                          APPENDIX III

     OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE
                 DRAFT AUDIT REPORT

                                                   U.S. Department of Justice

                                                   Office of Justice Programs

                                                Office of Audit, Assessment, and Management



                                                Washington, D.C. 20531




June 26, 2013

MEMORANDUM TO:               Troy M. Meyer
                             Regional Audit Manager
                             Washington Regional Audit Office
                             Office of the Inspector General

                              /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Audit of the National Institute
                             of Justice Award to the Virginia Department of Forensic Science,
                             Richmond, Virginia, Cooperative Agreement Number
                             2011-DN-BX-K421

This memorandum is in response to your correspondence, dated May 28, 2013, transmitting the
subject draft audit report for the Virginia Department of Forensic Science (DFS). We consider
the subject report resolved and request written acceptance of this action from your office.

The draft audit report contains one recommendation and no questioned costs. The following is
the Office of Justice Programs’ (OJP) analysis of the draft audit report recommendation. For
ease of review, the recommendation is restated in bold and is followed by our response.

1.     We recommend that OJP ensure that DFS accurately reports its Federal Financial
       Reports and calculates its drawdown requests by implementing an internal
       procedure to reconcile the cooperative agreement’s subsidiary accounting records to
       the official DFS accounting system (CARS).


                                              22
       OJP agrees with the recommendation. However, DFS provided OJP with a copy of its
       June 18, 2013 response to the draft audit report (see Attachment). In its response, DFS
       agreed that the information in one Federal Financial Report (FFR) was under reported,
       and concurred that additional procedures should be incorporated to prevent a recurrence
       in the future. As such, on June 21, 2013, DFS implemented revised procedures to ensure
       that future FFRs are accurately prepared, prior to submission to OJP. These new
       procedures appear to sufficiently address the recommendation. Therefore, OJP
       respectfully requests closure of the recommendation.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Gregory K. Ridgeway, Ph.D.
       Acting Director
       National Institute of Justice

       Portia Graham
       Acting Office Director, Office of Operations
       National Institute of Justice

       Gerry LaPorte
       Acting Office Director, Office of Investigation and Forensic Science
       National Institute of Justice

       Mark Nelson
       Senior Program Manager, Office of Investigation and Forensic Science
       National Institute of Justice

       Charlene Hunter
       Program Analyst
       National Institute of Justice

       Richard P. Theis
       Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20130776



                                              23
                                                           APPENDIX IV

 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE
                    REPORT

      The Department of Justice (DOJ) Office of the Inspector General (OIG)
provided a draft of this audit report to the Virginia Department of Forensic
Science (DFS) and the Office of Justice Programs (OJP). The responses are
incorporated respectively as Appendices II and III of this final report. The
following provides the OIG analysis of the response and summary of actions
necessary to close the report.

Analysis of DFS’ Response

      In response to our draft audit report, DFS concurred with our
recommendation, but offered an alternative corrective action to address our
finding. DFS also responded to information in our draft report that did not
pertain to our recommendation. We provide the following reply to these
statements before discussing DFS’ specific response to our recommendation.

      In its response, DFS was not in agreement with our analysis that the
FFR understated personnel charges by $53,269. The $53,269 is comprised
of $31,178 in personnel charges relating to July 2012 – September 2012,
and $22,091 in personnel charges relating to October 2012 through
December 2012. DFS agrees that personnel charges were understated by
the $31,178, and therefore caused the related FFR to be understated.
However, it disagrees with the characterization that $22,091 was also
understated. According to the DFS, the OIG was provided an interim copy of
the grant subsidiary ledger and after the interim copy was provided to the
OIG, an additional $22,091 of expenses occurred.

       We believe we correctly characterized the understatement at $53,269.
We requested grant expenses from the inception of the grant through
December 14, 2012. We received a copy of the grant subsidiary ledger on
December 27, 2012 and the ledger reflected $172,909 of personnel costs.
We compared subsidiary ledger amounts for personnel cost recorded to
amounts reflected in CARS (the general ledger) and noted differences. We
inquired about the differences and were told the grant subsidiary ledger
contained errors in that it had not pulled down all the personnel cost. On
January 10, 2013, we received a revised grant subsidiary ledger that
reflected personnel costs through December 14, 2012 to be $226,178. The

                                     24
difference between the original personnel cost and the revised personnel
cost is $53,269.

       Additionally, DFS offered two other comments for clarification. First,
DFS noted that the grant application explained that the forensic scientists
used on this grant were hired under a previous award. We revised our
report to clarify this point. Second, our report noted that DFS was unable to
provide specific metrics within its first two progress reports due to
overlapping project periods of the FYs 2010 and 2011 awards. According to
DFS, it could not provide certain metrics since the 2011 funds had not yet
been expended for backlog reduction purposes. We revised our report to
clarify that our concern is with the increase in backlogged cases.

Status of Recommendation
.
    1. Closed. We recommended that OJP ensure that DFS accurately
       reports its Federal Financial Reports and calculates its drawdown
       requests by implementing an internal procedure to reconcile the
       cooperative agreement’s subsidiary accounting records to the official
       DFS accounting system CARS. OJP concurred with the
       recommendation and provided a DFS alternate remedy to address the
       recommendation. DFS provided revised procedures demonstrating the
       requirement to reconcile payroll to the grant tracking spreadsheet.

      We reviewed the revised “Verification of Grant Payroll Amounts”
      procedures and determined it adequately addresses our
      recommendation. Therefore, this recommendation is closed.




                                     25
